                                                              LAND SECURITY
                                                              General
                                       Atlanta Field Office-Audit Division
                                            3003 Chamblee Tucker Rd
                                                Atlanta, GA 30341




                                       February 4,2004

MEMORANDUM

TO:           Patricia 6.Arcu&


FROM:
               Field Office Director

SUBJECT:      Audit of the State of West Virginia
              Administration of Disaster Assistance Funds
              Audit Report No. DA- 12-04


Attached for your review and follow-up.are five copies of the subject audit report that
was prepared by an independent accounting firm, Leon Snead & Company, P.C., under
contract with the Office of Inspector General. In summary, Leon Snead & Company
determined that the West Virginia Office of Emergency Services should improve certain
financial and program management procedures associated with the administration of
disaster assistance funds.

On July 29,2003 your office responded to the draft report. Based upon your response,
Findings A.3 and B.3 are closed and require no additional action. Finding B.2 is
resolved, but requires an additional response describing actions taken to implement the
recommendations. However, your response did not hlly address the recommendations in
Findings A. 1, A.2 and B. 1. Therefore, these findings remain unresolved pending an
additional response from FEMA Region 111.

Please advise the Atlanta Field OMice-Audit Division by April 6,2004 of the action
taken. Should you have any questions, please contact George Peoples or me at (770)
220-5242.

Attachments
                                                                                                   Certified Public Accountants
LEON SNEAD                                                                                         B Management Consultants
& COMPANmi: PC.
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
leonsnead.companypc@erols.com
                                                                 February 4,2004


          Department of Homeland Security
          Office of Inspector General
          Washington, DC 20528

          Leon Snead & Company, P.C. conducted an audit of the West Virginia Office of Emergency
          Services (Grantee) to assess its compliance with the Robert T. Stafford Disaster Relief and
          Emergency Assistance Act (as amended) and applicable Federal regulations. The audit was
          conducted at the request of the Department of Homeland Security (DHS), Office of Inspector
          General.

          The audit objectives were to determine if the Grantee administered grant programs in accordance
          with Federal regulations, and accounted for, reported and used FEMA program funds properly. We
          found that the Grantee needed to improve its procedures for: (1) managing administrative
          allowances; (2) performing financial management functions; (3) disbursing disaster funds; (4)
          documenting its internal controls and monitoring procedures; (5) preparing State Administrative
          Plans; and (6) ensuring subgrantees comply with Single Audit Act requirements.

          The audit was performed under the authority of the Inspector General Act of 1978, as amended, and
          in accordance with generally accepted government auditing standards, the Office of Inspector
          General audit guide and 44 CFR. Although the audit report comments on certain financial related
          information, we did not perform a financial audit the purpose of which would be to render an opinion
          on financial statements. The scope of the audit consisted of financial and program activities for eight
          Presidential disaster declarations open as of September 30, 2001. We reviewed 239 Public
          Assistance, Hazard Mitigation and Individual and Family Grant projects or applicants with Federal
          share costs of about $26 million.

          An exit conference was held to discuss the findings and recommendations included in the report with
          officials from FEMA Region I11 on February 11, 2003, and the Grantee on February 13,2003. We
          have included the written comments from Region I11 and the Grantee in Attachment B.

          Leon Snead & Company, P.C. appreciates the cooperation and assistance received from the Grantee
          and FEMA personnel.



                                                                  Sincerely,
                                                                                            Office of Emergency Services
                                                                                                    State of West Virginia




                                          TABLE OF CONTENTS


I.     Executive Summary .................................................................................................1 


11.    Introduction ..............................................................................................................3 


111.   Objectives. Scope. and Methodology....................................................................... 5 


IV .   Findings and Recommendations .............................................................................-7 


       A . Financial Management ....................................................................................... 7 


             1. Statutory Administrative Allowance ............................................................. 7 

             2 . Financial Management Controls ...................................................................9 

             3. Internal Controls System Documentation .................................................. 1 2 


       B . Program Management ......................................................................................13 


             1. State Administrative Plans ..........................................................................13 

             2 . Subgrantee Monitoring ...............................................................................14 

             3. Single Audit Act Compliance .....................................................................16 


V.      Attachments ...........................................................................................................17 


        A.         Schedule of Source and Application of
                   Funds as of September 30. 2001

                   Overall Funds (by Program type. i.e.. PA. IFG. HM) ................................18 


                   A-l    .  A.8 . Schedule of Source and Application of Funds ........................ 19 


        B.         Management Comments ............................................................................ 27 





                 .
 Leon Snead & Company. P.C.
                                                               Office pf Emergency Services
                                                                       State of West Virginia




                         I. EXECUTIVE SUMMARY

Leon Snead and Company, P.C. has completed an audit of disaster assistance grant
programs administered by the West Virginia Office of Emergency Services (Grantee).
The audit objectives were to determine if the Grantee administered FEMA grant
programs in accordance with Federal regulations, and accounted for, reported and used
program funds properly. This report focuses on the Grantee's systems and procedures for
assuring that grant funds were managed, controlled, and expended in accordance with
Robert T. Stafford Disaster Relief and Emergency Assistance Act (as amended) and
applicable Federal regulations.

Our audit focused on eight disasters open as of September 30, 2001. These disasters had
total obligations of about $134 million (Federal share $100.5 million), and total
expenditures of about $127 million (Federal share $95.5 million). We reviewed 239
Public Assistance (PA), Hazard Mitigation (HM) and Individual and Family Grant (IFG)
Program projects or applicants with a Federal share about $26.4 million. We completed
our fieldwork on September 12,2002.

Our findings regarding financial and program management are summarized below, and
discussed in detail in the Findings and Recommendations section of this report. Except
for the findings contained in this audit report, nothing came to our attention during the
audit that questioned the accuracy of information contained in the financial reports
submitted to FEMA.



       @    The Grantee was not fully complying with the most recent FEMA guidance
            regarding administrative allowances.

            The Grantee's internal procedures regarding drawdowns, making
            disbursements to subgrantees, and reconciling drawdowns and actual
            expenditures needed strengthening.

            The Grantee did not document or evaluate its internal and management control
            systems to ensure that all system requirements were include'd and the
            personnel responsible for each control function was identified.



        @   State Administrative Plans were not prepared in accordance with applicable
            requirements.



Leon Snead & Company, P.C.
                                                                Office of Emergency Services
                                                                        State of West Virginia

     o    Project files did not include sufficient evidence to support appropriate project
          monitoring.

      0   Procedures for ensuring Single Audits are performed of subgrantees had not
          been established.




             *




Leon Snead & Company, P.C.
                                                                Office of Emergency Services
                                                                        State of West Virginia



                             11. INTRODUCTION
WEST VIRGINIA OFFICE OF EMERGENCY SERVICES

The West Virginia Office of Emergency Services (Grantee) is an office within the
Department of Military Affairs and Public Safety. Its mission is to protect life and
property, and is responsible for managing and administering disaster relief for West
Virginia.    Grantee operations are managed in accordance with the West Virginia
Emergency Operations Plan (EOP), which provides state-level emergency operations in
response to disasters affecting West Virginia.

The Director is appointed by the Governor of West Virginia. As of September 12,2002,
the Grantee was authorized 34 permanent employees of which 29 were actually on-board,
and included four divisions: Administrative Support Services; Operations;
MitigationlRecovery; and Technical Hazards.

Our audit concentrated on the PA, HM, and IFG Programs. Four permanent employees
managed these programs on a daily basis. Other Grantee employees assisted in carrying
out emergency functions during disasters.

   E DISASTER ASSIST                            S

The Robert T. Staflord Disaster Relief and Emergency Assistance Act governs disasters
declared by the President. Following a major disaster declaration, the Act authorizes
FEMA to provide various forms of disaster relief to the state, as the grantee, and to state
agencies, local governments, eligible private nonprofit organizations, Indian Tribes, and
Alaska Native Villages as subgrantees. The Code of Federal Regulations (44 CFR)
provides further guidance on the requirements for and administration of disaster relief
grants. On October 30, 2000, the President signed the Stafford Act amendments into law
(Public Law 106-390). The amendments are effective only for disasters declared after
October 2000.

Public Assistance Grants

Public Assistance Orants are awarded for the repair or replacement of facilities, removal
of debris, and emergency protective measures necessary as a result of a disaster. To
receive a public assistance grant, a designated representative of the organization must
sign a Notice of Interest. After the applicant completes the Notice of Interest, FEMA
schedules an inspection of the damaged facilities. Inspection teams consist of FEMA,
state, and local officials. The inspection team prepares a Project Worksheet (PW),
formally called a Disaster Survey Report (DSR), identifying the eligible scope of work
and estimated costs. PWs are sent to FEMA for review and approval. FEMA approval
serves as the basis for obligating Public Assistance Grant funds.



Leon Snead & Company, P.C.
                                                                  Office of Emergency Services
                                                                          State of West Virginia


Hazard Mitigation Grants

Hazard Mitigation Grants are awarded to states to help reduce the potential of future
damage to facilities. The State must submit a letter of intent to participate in the program,
and subgrantees must submit a hazard mitigation grant proposal. The State is responsible
for setting priorities for selecting specific projects, but final approval must come from
FEMA. FEMA also approves sub grants for local governments, eligible private non-profit
organizations, Indian Tribes, and Alaska Native Villages. The amount of assistance
available under this program must not exceed 20 percent of the total assistance provided
under the other assistance programs.

Individual Assistance Grants

Individual and Family Grants are awarded to individuals and families who, as a result of a
disaster, are unable to meet disaster-related necessary expenses and needs. To obtain
assistance under this grant, the Governor of the State must express intent to implement
the program. This expressed intent includes an estimate of the size and cost of the
program. The grantee is responsibility for monitoring the program to ensure the
objectives and requirements are met. FEMA provides an administrative fee to the grantee
for administrative costs that cannot exceed 5 percent of the Federal grant program
payments.

Administrative Funds

Administrative funds provided to the grantee before October 30, 2000, could consist of
three types of assistance to cover the costs of overseeing the Public Assistance and
Hazard Mitigation Grant Programs. First, an administrative allowance was provided to
cover "extraordinary" costs directly associated with managing the program, such as
overtime and travel costs. This allowance was determined by using a statutorily
mandated sliding scale with payments ranging from one-half to three percent of the total
amount of Federal disaster assistance provided to the grantee. Second, FEMA could
award an administrative allowance referred to as "State Management Grants" on a
discretionary basis to cover the State's ordinary or regular costs directly associated with
administering the programs. Third, FEMA could award an administrative allowance for
activities indirectly associated with the administration of the programs.




Leon Snead & Company, P.C.
                                                                Office of Emergency Services
                                                                        State of West Virginia


              111.   OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES

The Office of Inspector General (OIG) engaged Leon Snead & Company, P.C. to
determine if West Virginia (1) administered the FEMA Disaster Assistance Grant
Programs according to Federal regulations, and (2) accounted for, reported and used
FEMA program funds properly.

SCOPE

This audit included reviewing financial and program activities for the PA, HM and IFG
programs. The universe subject to audit included 8 declared disasters in which about $134
million (Federal share $100.5 million) were controlled by the Grantee (See Attachment
A). The cut-off date for the audit was September 30, 2001. The specific disasters open as
of September 30,2001 are as follows:


 Disaster      Disaster                                  Date             Assistance
 Number                                                  Declared         Provided
 1096*         Flooding                                  01/25/96         PA, HM, IFG
 1115*         Flooding & Heavy Rains                    05123196         PA, HM, IFG
 1 l32*        Heavy Rains, High Winds, Flooding         08/14/96         PA, HM, IFG
                 & Slides
               Hurricane, Heavy Rains, High Winds,                         PA. HM, IFG
                 Flooding & Slides
               Heavy Rains, High Winds, Flooding                           PA, HM, IFG
                 & Slides
 1229 *        Severe Storms, Flooding & Tornadoes                         PA, HM, IFG
 1319*         Severe Storms, Flooding & Landslides                        PA, HM, IFG
 1378"         Severe Storms, Flooding & Landslides                        PA. HM, IFG
 Footnote *    Disasters included in our tests.


The eight disasters included in our audit scope had obligations of about $134 million
(Federal share $100.5 million), and total expenditures of about $127 million (Federal
share $95.5 million). We tested 139 PA projects in 4 disasters, 25 HM projects in 7
disasters, and 75 IFG applicants in 2 disasters with a total Federal share of about $26.4
million.

The audit included the functional areas of financial and program management. Emphasis
was placed on current Grantee procedures and practices for program administration and
oversight. Our fieldwork was conducted from July 23,2002 through September 12,2002.




Leon Snead & Company, P.C.
                                                               Office of Emergency Services
                                                                       State of West Virginia


METHODOLOGY

The audit was performed under the authority of the Inspector General Act of 1978, as
amended, and in accordance with generally accepted government auditing standards as
prescribed by the Comptroller General of the United States (Yellow Book-1994
Revision), the Office of Inspector General Audit Guide and 44 CFR.

We interviewed key officials and reviewed documents at the FEMA Region I11 office in
Philadelphia, Pennsylvania, to understand how the region oversees disaster programs in
West Virginia. The audit was conducted at the Grantee's office in Charleston, West
Virginia. We conducted interviews and reviewed documents to gain an understanding of
the Grantee's organizational structure and basic procedures for managing disaster
assistance grant programs.

We selected and tested records of individual recipients and representative projects to
determine whether disaster assistance projects and programs had been conducted in
compliance with applicable regulations.

We focused on evaluating the Grantee's systems and procedures and identifying systemic
causes of internal control weaknesses or noncompliance situations. We reviewed the
program management process, including application, approval, monitoring and reporting.
Our financial management review included policies and procedures relating to cash
management, cost matching, disbursing and reporting. We also evaluated compliance
with the standards for financial management systems set forth in 44 CFR 13.20, and
reviewed Single Audits performed by the State Auditor.

We were not engaged to, and did not, perform a financial statement audit, the objective of
which would have been the expression of an opinion on specified elements, accounts, or
items. Accordingly, we do not express an opinion on the costs claimed for the disasters
within the audit scope. Had we performed additional procedures or conducted an audit of
the financial statements in accordance with generally accepted auditing standards, other
matters might have come to our attention that would have been reported. This report
relates only to the accounts and items specified and does not extend to any Grantee or
State of West Virginia financial statements. The audit also did not include interviews
with subgrantees, or technical evaluations of repairs of damages caused by disasters.




Leon Snead & Company, P.C.
                                                                 Office pf Emergency Services
                                                                         State of West Virginia




                             INGS AND RECOMMENDATIONS
We found that the Grantee needed to improve its procedures for: (1) managing
administrative allowances; (2) performing financial management functions; (3) disbursing
disaster funds; (4) documenting its internal controls and monitoring procedures; (5)
preparing State Administrative Plans; and (6) ensuring subgrantees complied with Single
Audit Act requirements. Except for the findings contained in this audit report, nothing
came to our attention during the audit that questioned the accuracy of the information
contained in the financial reports submitted to FEMA.

A. FINANCIAL MANAGEMENT

   A.l Statutory Administrative Allowances

         Sufficient records were not available to fully support the statutory administrative
         allowances paid to the Grantee. This condition occurred because Grantee
         officials were not aware of the most current FEMA policy clarification
         regarding the use of and record keeping for administrative allowances.

         For PA and HM projects, FEMA provides grantees an allowance for
         extraordinary costs incurred during a disaster. Eligible costs include overtime
         pay and travel costs, but do not include regular time pay for state employees (44
         CFR 206.228(a)(2) and 44 CFR 206.439(a)(l)). These regulations also provide
         that FEMA will pay subgrantees necessary costs for requesting, obtaining and
         administrating federal assistance programs.

         In a July 1, 2002, memorandum FEMA clarified its existing policy on the use of
         grantee and subgrantee administrative allowances. This memorandum stated:
         (1) grantees and subgrantees must maintain records of how administrative funds
         were spent; (2) records documenting expenditures were subject to audit; and (3)
         any surplus administrative funds must be returned to FEMA. FEMA
         Headquarters and Region I11 officials informed us that the July 1, 2002,
         memorandum restated long-standing requirements for the PA and HM programs
         that were intended to apply to all federal disasters.

          We reviewed the "Account Status Report" for July 31, 2002, from' the states'
          accounting system. Although this report did not segregate administrative funds
          by program, it showed the total amount of administrative funds that were on-
          hand for each disaster. Our review of the report showed that the Grantee had
          approximately $360,000 of unused administrative funds for the eight disasters
          that were open as of September 30,2001.

          These disasters and the amount of unspent administrative funds were as follows:


Leon Snead & Company, P.C.                    7
FEMA                                                         Office of Emergency Services
                                                                     State of West Virginia



                 Disaster Number                      Amount
                       1096                           $5 1,952
                       1115                            13,594




                       1319                            44,42 1
                       1378                            111,503
                       Total                          $362,366

        Grantee officials informed us that they were not aware of the current records
        keeping requirements for administrative allowances until we provided them the
        July 1, 2002, FEMA memorandum. They believed, based on their previous
        discussions with FEMA officials, that administrative allowances were
        considered "block grants", and therefore, these hnds could be retained and used
        in the future for various emergency-related needs.

        Conclusions and Recommendations

        Sufficient records were not available to support the administrative allowances
        paid to the Grantee. If additional records cannot be identified to support the
        expenditure of allowable costs for each open disaster, the Grantee must return
        the unused funds to FEMA

        The Director, FEMA Region Tl[I should ensure the Grantee:

                  1. Documents and maintains sufficient records, by program and
                     disaster, to support that allowable costs have been incurred in
                     amounts equal to or greater than the administrative allowances
                     paid.

                  2. In coordination with Region III program officials, reviews any
                     unused administrative funds, and if appropriate, return unneeded
                     funds to FEMA.

       Management Response and Auditor's Analysis

         The Grantee responded that adequate documentation was maintained to support
         the expenditure of statutory administrative allowances; administrative
         allowances have been properly treated as block grants; and the allowances were
         used to support various emergency-related needs. The Grantee further stated
         that after receiving the July 1,2002, FEMA memorandum on the use and record
         keeping requirements for administrative allowances, accounting and expenditure


Leon Snead & Company, P.C.                 8
                                                               Office iof Emergency Services
                                                                       State of West Virginia

        procedures were revised to incorporate this guidance. Since that time,
        administrative allowances were only expended for extraordinary costs incurred
        during a specific disaster, and records were segregated by program area.
        Finally, the Grantee stated that all administrative allowances prior to September
        30,2002, were properly handled and no funds should be returned to FEMA.

        For the PA program, the Acting Director, FEMA Region III stated that the
        Grantee would be directed to provide all available documentation and billings
        relating to the use of administrative allowances. The Director further stated
        that if adequate supporting documentation is available the "block grant"
        argument presented by the Grantee could be supported. Regarding the HM
        program, the Director stated that since 1996 the Grantee had been informed of
        the appropriate use of administrative allowances, and the July 1, 2002, guidance
        did not establish new or additional requirements. This memorandum provided
        an opportunity to clearly specify that surplus administrative funds must be
        returned to FEMA, and Grantees could not retain unspent funds and use them
        for other purposes.

        Management's planned actions to obtain and review supporting documentation
        for the use of statutory administrative allowances under the PA program are
         adequate to resolve the condition. This should also be done for the HM
        program to facilitate resolution of the finding. The finding cannot be closed
         until these actions have been completed and unused funds, if any, are returned
         to FEMA.

   A.2 Financial Management Controls

         The Grantee did not have the expenditure data needed to reconcile drawdowns
         and expenditures for the IFG program, and apparently drew down funds against
         the wrong program (for PA and HM). As a result, drawdowns and actual
         expenditures for the PA, HM and IFG programs under certain disasters were
         "out-of-balance". In addition, expenditures for a HM project exceeded the
         authorized amount by approximately $67,500 and over $1 million was disbursed
         to a subgrantee before the funds were actually needed. We attributed these
         conditions to staff shortages and the high workload associated with recent
         disasters.

         Actual expenditures or outlays must be compared with budgeted amounts for
         each grant or sub grant. Accounting records must be supported by source
         documentation, such as cancelled checks, paid bills and payroll records, and
         grantees and subgrantees must maintain records which adequately identify the
         source and application of funds provided for disaster assistance (44 CFR 13.20).
         In addition, payment procedures should minimize the time elapsing between the
         transfer of funds and disbursement by the grantee or subgrantee. (44 CFR
         132 1 )


Leon Snead & Company, P.C.
                                                                Office of Emergency Services
                                                                        State of West Virginia


        The Grantee performed quarterly reconciliations of its actual expenditures with
        drawdowns from the ~ e d e i a lletter-of-credit system, SMARTLINK. The
        purpose of these reconciliations was to determine whether Grantee expenditures
        were the same as the amount of funds drawn down from the SMARTLINK
        system. The Grantee made disbursements on the same days that funds were
        drawn down from SMARTLINK; consequently, drawdowns and expenditures
        should agree. However, our review of SMARTLINK drawdowns and Grantee
        expenditures revealed the following out-of-balance conditions as of June 30,
        2002:

         ( Disaster I Program   I   SMARTLINK      /     Grantee       I    Difference           I
                                     Drawdowns         Expenditures
             1378        PA          $24,765,086       $25,112,725           $347,639
             1378        IFG          14,265,314        13,944,325            320,989


             1132        IFG          975,320            975,043                277
             1319        IFG          965,528            995,836               30,308

         The discrepancies shown above were attributed to the following factors.

               e      For Disasters 1378, 1132 and 1319 (IFG program), the West
                      Virginia Department of Health and Human Resources (DHHR)
                      was responsible for administering the IFG program. At DHHR's
                      request, the Grantee drew down the necessary f~indsfrom the
                      SMARTLINK system and transferred the funds to DHHR. DHHR
                      then disbursed the funds to eligible recipients. DHHR, however,
                      was not providing disbursement data to the Grantee.
                      Consequently, the Grantee could not reconcile drawdowns and
                      expenditures for the IFG program.

               a       For Disaster 1229, $67,123 for HM program expenditures was
                       erroneously drawn down against the PA program.

               g       For Disaster 1378 (PA program), the Grantee had not completed its
                       research efforts to resolve the differences at the completion of our
                       fieldwork.

       The Grantee disbursed $1,086,839 to a HM subgrantee prior to the time the
       subgrantee needed the funds. A property acquisition project for Fayette County
       was approved on July 23, 2002. The subgrantee estimated that the project would
       be completed by January 2004. The project plan showed that the subgrantee
       would begin making property acquisitions between six to nine months after
       project approval. Nevertheless, $1,086,839 was disbursed to Fayette County on


Leon Snecnd & Company, P.C.                  10
         A                                                   Office of Emergency Services
                                                                     State of West Virginia

      August 1, 2002, approximately six months before the subgrantee estimated it
      would begin making project acquisitions.

      Funds for Disaster 1096 for the HM program were overdrawn by $67,586. The
      Grantee had drawn down $6,026,777, but the total amount of funds authorized
      was $5,959,191. FEMA Region III was working with the Grantee to resolve the
      issue and make the necessary adjustments.

      Conclusions and Recommendations

      Although the Grantee had implemented internal control procedures for financial
      management functions, these controls needed to be further strengthened.
      Additional control procedures were needed to ensure actual expenditure data is
      used for financial management reports for the IFG program; drawdowns of
      program funds do not exceed the authorized amount; funds are not disbursed to
      subgrantees before they are needed; and "out-of-balance" conditions between
      drawdowns and actual expenditures are resolved as soon as possible.

      The Director, FEMA Region ICII should direct the Grantee to:

              1.     Obtain actual disbursement data from DHHR and utilize this
                     information when preparing and reconciling financial reports.

              2.     Establish appropriate procedures to ensure drawdowns do not
                     exceed authorized amounts.

              3.      Develop procedures to minimize the time elapsing between the
                      transfer of funds and disbursement by subgrantees.

              4.      Ensure effective procedures are established to promptly resolve
                      out-of-balance conditions between drawdowns and actual
                      expenditures



         The Grantee responded that a system was implemented to obtain disbursement
         data fiom DHHR. In addition, the Grantee stated that every account for the
         eight open disasters included in our review were audited and reconciled, and
         controls were established to ensure accounts are balanced on a monthly basis.
         The Acting Director, Region In stated that the Region has reviewed the
         Grantee's written policy addressing these issues.

         Management's actions are adequate to resolve and close recommendations 1, 2
         and 4. However, the Region's response did not address recornnzendation 3
         regqrding procedures to minimize the time elapsing between the transfer of



Leon Snead & Company, P.C.
FEMA                                                          Office af Emergency Services
                                                                      State of West Virginia

       funds and disbursement by subgrantees. The finding remains unresolved,
       pending the Region's response to recommendation 3.

  A.3 Internal Control System Documentation

        The Grantee did not document and evaluate the internal and management
        control systems to ensure that its controls were adequate and being followed.
        We attributed this condition to a shortage of staff, and the workload associated
        with several recent disasters.

        Effective control and accountability must be maintained for all grantee and
        subgrantee cash, real and personal property and other assets (44 CFR 13.20
        (a)(3)). Good internal control management procedures also require that systems
        be documented and evaluated to ensure all control procedures are followed and
        the personnel responsible for each control function are identified.

        Grantee officials were knowledgeable of operational procedures and controls,
        and they recognized the need to document existing control systems. These
        control procedures, however, had not been documented into an operations
        manual, and were not periodically evaluated to determine their effectiveness.

        We did not identify any material internal control weaknesses. We noted,
        however, that the transition for new Grantee personnel was made more difficult
        due to the lack of operational and internal control documentation.

         Conclusions an Recommendations

         The Grantee needs to document its internal and management control systems to
         ensure all system requirements are included and the personnel responsible for
         each control function are identified. Periodic evaluations of the control system
         should also be performed.

         The Director, FEMA Region IJI,should request the Grantee to prepare written
         procedures describing its internal and management control systems, and to
         periodically evaluate the effectiveness of these control systems.

            nagement Response and Auditor's Analysis

         The Grantee responded that a written policy on all internal and management
         control systems was developed and all personnel responsible for each control
         function was identified. Regional officials reviewed and evaluated the policy
         and determined that it adequately addressed the finding.

          The actions taken by management are adequate to resolve the condition, and the
         finding is closed.



Leon Snead & Company, P.C.
FEMA                                                          Off~ceof Emergency Services
                                                                     State of West Virginia


B. PROGRAM MANAGEMENT

  B.l State Administrative Plans

        The State Administrative Plans for the HM and PA programs did not include all
        required elements. The IFG Administrative Plan did not include sufficient
        guidance for reconsidering recipient benefits. The Grantee needs to ensure
        current and future Administrative Plans are prepared in accordance with existing
        requirements, and the Plans include specific procedures for performing essential
        program activities and functions.

        State Administrative Plans for the HM, PA and IFG programs must include
        certain elements, including specific procedures for performing essential program
        functions and activities (44 CFR 206.437; 44 CFR 206.207; and 44 CFR
        206.13 1). The HM Desk Reference provides additional requirements for HM
        Administrative Plans (HM Desk Reference, Section 2, pages 7 through 13).

        We compared the current Administrative Plans for the HM, PA and IFG
        programs with applicable preparation requirements.    Our comparison
        determined that:

              1. The HM plan did not include procedures for: (a) conducting
                 environmental and flood plain reviews; (b) establishing priorities for
                 selecting mitigation projects; (c) monitoring and evaluating mitigation
                 projects; (d) providing technical assistance to subgrantees; and (e)
                 conducting costbenefit analyses.

              2. The PA Administrative Plan did not include procedures for
                 determining staffing and budgeting requirements for program
                 management.

              3. The IFG Administrative Plan did not include sufficient procedures for
                 reviewing and processing reconsiderations of recipient benefits. The
                 IFG Plan addressed recipient reconsiderations, but the Plan did not
                 include adequate guidelines for reviewing, approving and documenting
                 reconsiderations.

         Although the current Administrative Plans did not include the procedures
         identified above, we did not identify specific instances in which the required
         functions were not being performed.

         Conclusions and Recommendations




Leon Snead & Company, P.C.
                                                               Office of Emergency Services
                                                                       State of West Virginia

        The current State Administrative Plans for the HM, PA and IFG programs were
        not prepared in accordance with applicable requirements. Without complete
        Administrative Plans, FEMA might not be aware of changes in conditions
        affecting the management of disaster assistance programs.
                                                                                       . .

        The Director, FEMA Region 111 should ensure that future administrative plans
        for the HM, PA and IFG programs include all required elements.

        Management Response and Auditor's Analysis

        The Acting Director, FEMA Region I11 responded that the Grantee revised its
        Administrative Plan for the Individuals and Households Program (formerly the
        IFG program) for Disaster 1474, to include procedures for reviewing and
        processing considerations. The Director also confirmed that the PA State
        Administrative Plan for Disaster 1455 was revised to include a staffing plan. In
        addition, the Director responded that a revised HM State Administrative Plan
        was provided to the Region 111 Hazard Mitigation Officer on July 15,2003. The
        Plan included procedures for conducting environmental and flood plain reviews;
        monitoring and evaluating mitigation projects; providing technical assistance to
        subgrantees; and conducting costhenefit analyses. However, the Director did
        not comment on the need to have procedures established in the plan for selecting
        mitigation projects.

        Accordingly, the recommendation remains unresolved pending a response from
        the Region regarding this issue.

     .2 Subgrantee Monitoring;

         Project files did not include sufficient evidence to support adequate project
         monitoring. Consequently, FEMA could not be assured that complete and
         accurate project status information was reported. We attributed this condition to
         staff shortages and insufficient documentation of subgrantee monitoring
         activities.

         Grantees are responsible for managing the day-to-day operations of grant and
         sub grant supported activities. Grantee monitoring must cover each program,
         function and activity (44 CFR 13.40). Effective procedures and practices for
         project monitoring are essential for establishing a good internal control system.

         The Grantee required HM and PA subgrantees to prepare and submit quarterly
         status reports for ongoing projects. Our review of HM and PA project files and
         discussions with program managers, however, revealed that:

                 0    No procedures had been established to monitor the receipt of
             e        subgrantee status reports for HM projects. No methodology or



Leon Snead & Company, P.C.                  14
                                                                Office of Emergency Services
                                                                        State of West Virginia

                     process had been developed to (a) identify when status reports
                     were required from individual subgrantees; (b) determine if and
                     when status reports were received; and (c) assess the accuracy and
                     completeness of status reports.

             *       Although PA subgrantees were required to provide quarterly
                     project status reports for small and large projects, many PA project
                     files did not include status reports. If a subgrantee did not submit a
                     project status report, the PA Officer stated that she telephoned the
                     subgrantee and obtained the needed information verbally. This
                     verbal information was not documented in the project files.

        Conclusions and Recommendations

        HM and PA project files did not include adequate documentation of significant
        events and activities relating to ongoing projects. Project file documentation
        needs to be improved to ensure effective monitoring of subgrantees.

        The Director, FEMA Region I11 should ensure the Grantee:

              1. Develops and implements appropriate procedures for monitoring the
                 receipt of quarterly status reports for HM projects.

              2. Documents quarterly project status data received from PA subgrantees.

        Management Response and Auditor's Analysis

         The Acting Director, FEMA Region I11 responded that the State's response to
         monitoring PA applicants was not sufficient. Therefore, Region III officials will
         work with the Grantee to develop a regular project status reporting format or PA
         applicants. For the HM program, the Grantee responded that a system to track
         subgrantee reporting was instituted, and Project Officers were instructed on how
         to review the accuracy of quarterly project reports. The Director responded that
         the State's actions regarding the HM program were adequate.

         Management's actions are adequate to resolve the conditions, but the Jinding
         cannot be closed until an acceptable reporting format for PA applicants has
         been established.




Leon Snead & Company, P.C.
                                                             Office of Emergency Services
                                                                     State of West Virginia

  B.3 Single Audit Act Compliance

        The Grantee had not established procedures for ensuring that subgrantees fully
        complied with Single Audit Act requirements. Consequently, single audits of
        subgrantees may not have been performed when required.

        Subgrantee audits must be performed in accordance with Office of Management
        and Budget (OMB) Circular A-133, "Audits of States, Local Governments, and
        Nonprofit Organizations." OMB Circular A-133 requires grantees to: (1)
        identify the amount of federal funds awarded to subgrantees; (2) advise
        subgrantees of federal audit requirements; (3) enshe audits of subgrantees that
        expended $300,000 of more of federal funds in a fiscal year are performed; (4)
        issue management decisions on audit findings within six months after receipt of
        the audit; and (5) consider whether subgrantee audits require adjusting grantee
        records (44 CFR 13.26).

        The Grantee did not maintain information regarding the amount of federal funds
        provided to subgrantees. Consequently, subgrantees that expended $300,000 or
        more of federal funds in a fiscal year could not be identified, and the Grantee
        could not ensure single audits were performed when required. Furthermore, the
        West Virginia Single Audit for the year ended June 30, 2001, reported that the
        State had not complied with regulations concerning subgrantee audits.

         Conclusions and Recommendations

         The Grantee did not maintain information on the amount of federal funds
         awarded to subgrantees, and internal procedures for ensuring subgrantees
         complied with Single Audit Act requirements had not been implemented. As a
         result, Single Audits of subgrantees may not have been performed when
         required.

         The Director, FEMA Region I11 should require the Grantee to establish and
         implement appropriate procedures for ensuring subgrantee audits are performed
         in accordance with 44 CFR and OMB requirements.

            nagement Response and Auditor's Analysis

         The Grantee responded that a system was being developed to ensure Single
         Audits of subgrantees are conducted when required. The Acting Director,
         FEMA Region I11 confirmed that an adequate process was developed and has
         directed the Grantee to implement the process by incorporating it into their
         official policies and procedures.

         Management's actions are adequate to resolve the condition, and the Jinding is
         resdved and closed.


Leon Snead & Company, P.C.
                             Office 'of Emergency Services
        A                             State of West Virginia




Leon Snead & Company, P.C.
                                 Schedule of Source and Application of Funds                   Attachment A
                                   West Virginia Office of Emergency Services
                                      Disaster Assistance Grant Programs
                                                 As of September 30,2001



                                       All Disasters Numbers 1096 through 1378

                                         Public              Individual            Hazard             Total
                                        Assistance           & Family             Mitigation         Disaster
                                         Grants                Grants              Grants            Grants

Award Amounts

  Federal Share

  Local MatcWState Share

Total Award Amount



Source of Funds

  Federal Share

  Local MatcWState Share

Total Source of Funds



Application of Funds

  Federal Share                              $61,102,164            $19,686,354        $14,667,744       $95,456,262

  Local Matchistate Share                    $20,367.389             $6.545.005         $4.888.912       $31.801.306

Total Application of Funds                   $81,469,553            $26,231,359        $19,556,656      $127,257,568




Balance of Federal
Funds On Hand




                            C-




Leon Snead Company. P.C.
                             Schedule of Source and Application of Funds                       Attachmed-1
                               West Virginia Office of Emergency Services
                                  Disaster Assistance Grant Programs
                                                As of September 30,2001



                        Disaster Number 1096 - Declaration Date January 25,1996 - Flooding                         I
                                        Public              Individual             Hazard             Total
                                       Assistance            & Family             Mitigation         Disaster
                                        Grants                Grants               Grants            Grants

Award Amounts

  Federal Share                            $21,695,688             $2,753,565          $5,989,392       $30,438,645

  Local Matchistate Share                   $7.23 1,896              $9 17.855         $1.996.464       $10,146.215

Total Award Amount                         $28,927,584             $3,671,420          $7,985,856       $40,584,860



Source of Funds

  Federal Share

  Local MatchIState Share

Total Source of Funds



Application of Funds

  Federal Share                            $2 1,577,922             $2,753,599         $5,890,580       $30,222,101

  Local Matchistate Share                    $7.192,64 1              $9 17,866         $1.963.527       $10.074.034

Total Application of Funds                 $28,770,563              $3,671,465          $7,854,107       $40,296,135




Balance of Federal
Funds On Hand




Leon Snead Company. P.C.
                                Schedule of Source and Application of Funds                   Attachment A-2
                                  West Virginia Office of Emergency Services
                                     Disaster Assistance Grant Programs
                                               As of September 30,200 1



                        Disaster Number 1115 - Declaration Date May 23,1996 - Flooding

                                        Public              Individual            Hazard             Total
                                       Assistance            & Family            Mitigation         Disaster
                                        Grants                Grants              Grants            Grants

Award Amounts

  Federal Share                             $5,349,476             $1,523,148         $1,982,319        $8,854,943

  Local MatcMState Share                    $1,783.159               $507,716          $660,773         $2.95 1.648

Total Award Amount                          $7,132,635             $2,030,864         $2,643,092       $11,806,591



Source of Funds

  Federai Share

  Local MatchIState Share

Total Source of Funds



Application of Funds

  Federal Share                             $5,349,476             $1,523,148         $1,930,814         $8,803,438

  Local MatchIState Share                   $1,783.159               $507,716           $643,605         $2.934.480

Total Application of Funds                  $7,132,635              $2,030,864         $2,574,419       $11,737,918




Balance of Federal
Funds On Hand




                            m
                            '




Leon Snead Company. P. C.
                                 Schedule of Source and Application of Funds                     Attachment A-3
                                   West Virginia Office of Emergency Services
                                      Disaster Assistance Grant Programs
                                                   As of September 30,2001



I                           Disaster Number 1132 - Declaration Date August 14,1996 - Flooding                      1
                                           Public               Individual           Hazard            Total
                                          Assistance             & Family           Mitigation        Disaster
                                           Grants                 Grants             Grants           Grants

    Award Amounts

      Federal Share

      Local MatchIState Share

    Total Award Amount



    Source of Funds

      Federal Share

      Local Matchistate Share

    Total Source of Funds



    Application of Funds

      Federal Share                             $1,567,7 17              $379,639          $632,013        $2,579,369

       Local MatcWState Share                     $522,572               $126,546          $210.334         $859,452

    Total Application of Funds                  $2,090,289               $506,185          $842,347        $3,438,821




    Balance of Federal
    Funds On Hand




    Leon Snead Company. P.C.
                             Schedule of Source and Application of Funds                    Attachment A-4
                               West Virginia Office of Emergency Services
                                  Disaster Assistance Grant Programs
                                              As of September 30,2001



                    Disaster Number 1137 - Declaration Date September 11,1996 - Hurricane                      I
                                     Public               Individual            Hazard             Total
                                    Assistance             & Family            Mitigation         Disaster
                                     Grants                 Grants              Grants            Grants

Award Amounts

  Federal Share

  Local Matchistate Share

Total Award Amount



Source of Funds

  Federal Share                          $1 1,399,790              $73 1,490        $2,046,44 I      $14,177,721

  Local Matchistate Share                 $3,799,930               $243.830           $682,147        $4.725.907

Total Source of Funds                    $15,199,720               $975,320         $2,728,588       $18,903,628



Application of Funds

  Federal Share

  Local MatchIState Share

Total Application of Funds




Balance of Federal
Funds On Hand




Leon Snead Company. P. C.
                                 Schedule of Source and Application of Funds                      Attachment A-5
                                   West Virginia Office of Emergency Services
                                      Disaster Assistance Grant Programs                                     .   .
                                                     As of September 30,2001



                                Disaster Number 1168 - Declaration Date March 7,1997 - Flooding                      1
                                            Public                Individual          Hazard            Total
                                           Assistance             & Family           Mitigation        Disaster
                                            Grants                  Grants            Grants           Grants

Award Amounts

  Federal Share

  Local MatchiState Share

Total Award Amount



Source of Funds

  Federal Share

  Local MatchiState Share

Total Source of Funds



Application of Funds

  Federal Share

  Local MatchiState Share

Total Application of Funds




Balance of Federal
Funds On Wand




                            *




Leon Snead Company. P.C
                             Schedule of Source and Application of Funds                  Attachment A-6
                               West Virginia Office of Emergency Services
                                  Disaster Assistance Grant Programs
                                            As of September 30,2001




                                     Public             Individual            Hazard             Total
                                    Assistance           & Family            Mitigation         Disaster
                                     Grants               Grants              Grants            Grants

Award Amounts

  Federal Share

  Local Matchistate Share

Total Award Amount



Source of Funds

  Federal Share

  Local MatchlState Share

Total Source of Funds



Application of Funds

  Federal Share                          $6,012,052             S2,098,618        $1,749,765         $9,860,435

  Local Matchistate Share                $2.004.0 18             $682.427           $583.255         $3,269,700

Total Application of Funds               $8,016,070             $2,781,045         $2,333,020       $13,130,135




Balance of Federal
Funds On Hand




Leon Snead Company. P.C.
                                Schedule of Source and Application of Funds                   Attachment A-7
                                  West Virginia Office of Emergency Services
                                     Disaster Assistance Grant Programs
                                                As of September 30,2001



                        Disaster Number 1319 - Declaration Date February 28,2000 - Flooding

                                        Public               Individual           Hazard            Total
                                       Assistance             & Family           Mitigation        Disaster
                                        Grants                 Grants             Grants           Grants

Award Amounts

  Federal Share

  Local Matchistate Share

Total Award Amount



Source of Funds

  Federal Share

  Local Matchistate Share

Total Source of Funds



Application of Funds

  Federal Share                              $4,660,232               $735,640           $19,728        $5,415,600

  Local MatchIState Share                    $1,553.41 1              $245.213            $6.576        $1.805.200

Total Application of Funds                   $6,213,643               $980,853           $26,304        $7,220,800




Balance of Federal
Funds On Hand




                            C




Leon Snead Company. P. C.
                                Schedule of Source and Application of Funds           Attachment A-8
                                  West Virginia Office of Emergency Services
                                     Disaster Assistance Grant Programs
                                                                                                 . .
                                               As of September 30,2001




                                        Public              Individual    Hazard            Total
                                       Assistance            & Family    Mitigation        Disaster
                                        Grants                Grants      Grants           Grants

Award Amounts

  Federal Share

  Local MatchiState Share

Total Award Amount



Source of Funds

  Federal Share

  Local Matchistate Share

Total Source of Funds



Application of Funds

  Federal Share

  Local MatchiState Share

Total Application of Funds




Balance of Federal
Funds On Hand




                            *




Leon Snead Company. P.C
                                              Office of Emergency Services
                                                      State of West Virginia




                                                          Attachment B




             WEST VIRGINIA OFFICE OF EMERGENCY SERVICES

                      COPY OF MANAGEMENT COMMENTS




              e 





Leon Sitead & Company, P. C.
FE                                                                                       Office pf Emergency Services
                                                                                                 State of West Virginia




                               Federal Emergency Management Agency
                                                         w o nX
                                               onaInsl4#nacmceMatSixIhPL00~
                                                      615 Che~lnutSaaet
                                                  PbiLPdslehrq PA 1910&44@$




           SUEUBCP:                  West V k g W Audit




           WewillbeollndurrtiagaW                      t site visit in West Virgjnia in early Sbptembca to validate
           the informtionmwided, a n d ~ d tachnicd               o ~assistance. Additionally, we continue to
           monitorthe ~CedE's~ u a r t e&  dm
                                            ~ ta fol B W W m~d ~consistency.
                                                                       ~         If you have any qudom,
                   g this inFOnmati011, plsase mWt Wtobob Matanurn @ (215) 93 1-5674.




Leon Snead & Company, P.C.
         A                                                                               Office of Emergency Services
                                                                                                 State of West Virginia




                               Federal Emergency Management Agency
                                                          R@n III
                                               Onc Indcptndcnce Mnll, S i Flow
                                                      615 ChemitSmft
                                                 PhUaddphia,PA 1910644W

              ORD 





               MEMORANDUM FOR: Garv J. Barard


               FROM:


               SUBJECT:                   Response to Draft Audit Report - State of West Virginia
                                          Administrationof Dimter Assistance Funds

               This is in respmc to your January 8,2003 memorandum by which you transmitted thc
               ctraff audit mpoet of tht State of West Viginia OtZia of Emerg-       .%dm*  (Om)
               adminlstmtion of disasttr assistance grants. 1 appreciate your patience aad
               undtrstanding as continual disaster response activities precluded OESs response until
               June 20,2003, a copy of which i s attached. I shall addtess the reccmuncndationsin the
               otdcr in which they appear in tlu:dmfl report.


               Thc draft audit r m n states. "sufftcianrrecords were nor availableto suwort the
               administ~ativeallbwances &iid to the Grantee.'' Thc Stare disputes tiyt'skatement and
               indicates that documentation is available with detailed receiprs, aud that the records are
               kcpt by d i m and are fully segregated by program.

               Public Assistance

               The State will ilead to provide source documentationto the OD3 auditors for review and
                con^-ca in order to avoid this item being considered a finding. If this issue is
               bmugbt forward as a finding by thc QIG in the final report we will ask the State to bring
               forward all available documents and billings against disaster related activities, whicb
               these costs were applied against. With supporting source documentalion we can support
               the "btwk grant" argwnent as brought forward by the State.




Leon Snead & Company, P.C.
F         A                                                                               Office of Emergency Services
                                                                                                  State of West Virginia




               Under the Hazard MitigMion Gmnt Rogram (WMGP),the administrative costs mu
               assigned on a project-by-project basis. The calculation of the administrative costs is
               basad on a sliding scale created by regulation for grants awarded to the subgrantee.
               These costs arc automatically calculated by FEMA's information wstan (NEMIS), and
               arc obligated as projects arc&xovcd.      he State receives a breakdown of these cbsts on
               ~e obligation report that accompanies the HMGP project approval letter. The
               administrative costs %I used to cover State expenses including overtime pay, per diem,
                                    .T
               and travel of State employees performing         administrativcttasks. Th; We;   Virginia
               State Hazard Mitidon Officer has been informed of the appropriate use of these funds
               since 1996 through bi-annual FEM4fStatc Hazard ~itijptiba&tings, telephone
               inquiries, W n g sessions for news&, and field visits to monitor their HMGP
               progress- In July 2002, our office informed the State of the guidance on statutory
               administrative allowance as a means to provide clatification for the use of and nponing
               requirements for the Grrmtce and Subgrmtge administrative costs. This was not an
               introductionto a new federal grilnt requirement bur an opportunity to specify that
               surplus administrativefmds must be returned to FEMA. The States codd na longer
               mainutlspem funds and use them for another purpose. We believe that the States have
               been adequately informed of the appropriate use of tht administrative costs for HMGP
               projects.



               The State's response Mcates rhar a system has bem put in place to obtain
               disburacment data We confirmed that a written policy also exists. We lnve requested a
               copy of the written policy to review. Upon receipt of the document m will comment
               accordingly. 


               63. hln~rnalControl Svstem Documentation
               The State's nsponse indicates that h e y have developed a written policy to resoive this
               issue. We have requested a copy of the winen policy to review. Upon receipt of the
               document we will commenr accordingly.

                B1. belieibk Proiect Costs
                We have no commcut. The O D response indicates this item has been removed from
                the audit finding.




Leon Snead & Compaizy, P.C.
F         A                                                                                 Office of Emergency Services
                                                                                                    State of West Virginia




              82.   State Adminismtivc Plans

              Hazard Mitigation Plan


              The State bas revised its Hstzard Mitigation (HM) Administrative Plan to address the
              c a m outlincd in the Decunbcr 2002 audit re&.            The r e v i d nlan was delivered to
              the Reeion lII M i t i d o n Office on July 15.200i. The current revisions in the
                               PG
              ~ ~ s t m t i v c i m ~ p r o w i m f;oico~lectin~        the data for 1) conductingthe
              b m f i t cost analysis: 21 cbmolctine the environmentid aMi historical reviews; 3)
                            and &&a&        ktigathprojats; and 4)pmvidmg technical assi&ce to
              -tees.          ' ~41th-   the State's reswnse to this section indicates that the items 'kt'',
              "dm-aad 2"are F~           d b i l i t i & the revised Administrative Plan does outline
               steps for docomplisbing th-ese tasks. These tasks are (a) collecting information to &C
               F E W to cnmplete envlrwmenml and historic reviews; (d)     - providing technical
                                                                             -   ?



               assistanceto ~"bgmntees,(e) calfecting supporting data for use in c&dating the
               benefit-wstratio.
                                        .   .
               Public Assistance Adrmmseative Plan

               The Sratr: has taken d    y      e measures in accordance with thcir rapme.



               We concur with the State's nsponse. DHHR has revised their Administrative Plan for
               the Individuals and Households Program for 1474-DR to include procedures for
               reviewing and processing ~e~dsiderations.




               We an satistied with the State's response. The revised FM Adminknative Plan does
               include subgranteemonitoringduties as it relates to quarterly report requirements.



               The Stare's response does not satisfy the OIG findingsconcerning the management of
               the Grants Managesnmt p m s . We will work with OES to deveIop a regular reporting
               format kr the subgrantees to report to OES on the stam of their respective pmjects
               within a specific d i i .




Leon Snend & Company, P. C.
                                                                                        Office of Emergency Services
                                                                                                State of West Virginia




               The State's response indicattS that they src still aying to come up with a system to
               resolve this issue. We have requested that a system be implemented with a written
               policy to address this issuc. Upon receipt of the document we will comment
               accordingly.

               The State bas promised to mail be nquested items Upon rcccipt, we will review f   k
               documents to determine their adcquacy in addressing the ldmtified DHS IG Audit
               findings. In addition wc will cmduct a Grants Management site visit wth West
               V i a in August m follow-up on outstaading audit item,validate information
               provided, and provide necessary technital assistance. Additionally, we will continue to
               monitor the S W s qwterly reports for accuracy and constituency.

               We will bf0111y
                             lou of our progress in these areas Please mntact Steve Adukaitis, our
               Audit Follow-up Official on 215/931-5659,  if you have any questions.

               Attachment




Leon Snead & Company, P. C.
FEMA                                                                    Office bf Emergency Services
                                                                                State of West Virginia




                                                                         June 20,203



           From:        Lw m y ,
           Subject:     Audit


                 Plee~ttfinA           ws            6 met of Ettl~pgcncy$&     tespOnSe
           to "Audit of Disaster assist an^^:" canductcd September, 202.

                   Plaesa call me with any questims.




             *




Leon Snead & Company, P.C.
                                                                                       Office of Emergency Services
                                                                                               State of West Virginia




                                AUDIT OF DISASTER ASSISTANCE
                                GRANT WAGEMIENT PROGRAM
                          WEST VXRGINlA OFFICE OF EMERGENCY SERVICES
                                      RE;SWNSETO AUDIT MNDINGS




                   Whon the eudit was W e d inSeptember, 2002, this office was it&m& by
                   Lam Saeaa & Company, P.C., ofa Fl34.A niemOraamrm that was datcd July 1,
                   2002. About tbis samt time we actmliy received the mcmorandmn in tho mail. It
                   wasalsoattfiibtimGtbat~ctountingand~proosdures,etWVOES
                   were dhangcd to incoxpo&e the grtidance. &mu this time ibnward we hove
                   f d l o d the guidance to the         Administrative a l l 0 ~ ~ 1 1 0an
                                                                                         e 6 only Gxpended
                   for axtraordinsry costs i n m i d during a particular disaster and they an program
                   specitic.
                   This agency take4 the position that all ad mini^ allowancesprior tr, the
                  'SaPtwnbsr 30,2002date haw been orooerhr bdadlsd and we should not be




                   Financia managemat controlshhvo beaa weak in the past Due to MshoItages
                   rewrds were xardy balanced Problems smsc from incorrect postings of draw-
                   downs to the w m g &ads. The acmat amounts were dtavm down an the same




Leon Snead & Company, P.C.
 EMA                                                                               Office of Emergency Services
                                                                                           State of West Virginia




                  &y of the expaxihm, however when poshng to the stale accounting m      ean
                  d@ta or apanditpreo wcro on occasio~~    posted to thc wrong account. This
                  aeated accmnts that wese constantly out of balance.

                  This office has undertakes the hughjob of auditing every scmtmt from thc 8 opan
                  disasters cwend under this audit. We have gone back to the vcxy first entry
                  (deposit/expenditure)and have reconciled each of the disaster ~~couats.  We are
                  v a y.close to being cc,mplc%edwith this project. We have also hirod an additional
                        .
                  admmSmMve tecimician.The office has had 2 sdministdvt mployccs for
                  many years and is now staffed with 4,

                  Financial controls arc no longsc a problem with this ag-. We hPvc taka great
                  step to get all scGormtd m balance and have deveIopd controls to kaep thm &I
                  bdanw on a rnonthIy bPeis.




                  We have devdopba a wittea policy on all intnnnl end               Control
                  systems to glsute all systan raquinments are included aad the persmel
                  rcsponsiblo for eaoh oontrol function is i d d & d .




                  The issue of the City ofMitton raceiving
                  reimbmcmcnts for Uniform Relocation Addiattnce was resolved during a
                  meeting with representatives h m Lean Sncad & Co. Tho reimbmemcntwas
                  found to be eligible and was ranova! from the audit finding.


                                           -
                  Public Assihnce (PA) The Public Assisbnct Plan has                      to i n c h
                  a stafiing plan (chart). Sincethis audit we have had a new disaPter (DR1455)and
                  FEMAhas reviewed and a m p r o d our State A*.        Plan.

                  Hszud Mltigdion (EM) - Items designated "a" and "en are the rcspm.sibiwyof
                  FEMA and the sstatd is not expected to be proficient in these areas. Item "b"had
                  been established in written form and was comrmLnicated to subgrantees and tba
                  prioritization board following each HM eligible disaster event, but was
                  &omthe RM Scotion 404 plan. Itean "c" had been established in the HM Desk
                  Refeream, but wos atso not included in the Seotion 404 plan fbc HM Scation




Leon Snead & Company, P.C.
                                                                                      Office of Emergency Services
                                                                                              State of West Virginia




                   We an able to implementr procedure to tract the t o t . dollars awmlcd ti,
                   aabgnrntees and to h t i & those that wouM be repoifed to comply with Single
                   Audit Act n q h ~ l tBothg PA cind HM nquinecertificatlm,by &nature, m
                   all awards. thst a c h subgrantee is in oomplianccwith Single Audit Act
                   requirements. We are still in discussiw as to how to comply at the state level iSor
                   compliancebeyondhd lwei.




Leon Srtead & Company, P.C.
